CERTIFICATE OF COMPLIANCE
Case No. Chabot v. APRI
Caption: 19-110
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 2,072 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 12, 2019.

Samantha Collins

Record Press, Inc.

Sworn to before me on
August 12, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
2019

Notary Public

